THE LAW OFFICES OF SETH KRETZER
9119 S. GESSNER ROAD, SUITE 105
HOUSTON, TX 77074

TELEPHONE (713) 775-3050
SETH@KRETZERFIRM.COM

TELECOPIER (713) 929-2019
SKYPE: SETH.KRETZER

September 23, 2021
Honorable Scott S. Harris
Clerk of the Court Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 21-5592 (Capital Case), John H. Ramirez v. Bryan Collier, Executive
Director, Texas Department of Criminal Justice, et al.

Dear Mr. Harris:
I write in response to the reply filed by Respondents September 23, 2021.
As an initial matter, the Respondents evade the implications of the “limited set of
documents” with which they seek to supplement the record. They seek to provide the Court
with unverified, non-party, redacted, anonymous statements the Respondents
manufactured two weeks after the Court granted certiorari September 8, 2021. If the
Respondents really want to stand on their recently manufactured evidence, they may
request remand to the federal trial court, where those individuals may be cross-examined,
without the benefit of anonymity and redaction.
But the Respondents should not be permitted to misstate the procedural history of
this case. Respondents declare they have not had “occasion to respond on the merits to
Petitioner’s complaint with a motion to dismiss or an answer.” They are incorrect. In fact,
the Respondents refused to answer the lawsuit when requested by Rules of Civil Procedure
to do so when the section 1983 lawsuit was filed August 2021.
The lawsuit was filed August 10, 2021. Minutes later, the lead Assistants Attorney
General were served with a copy by the Federal Electronic Case Filing System and by
email. The lawsuit was amended August 16. The next day, August 17, I delivered to the
lead Assistants Attorney General: a request letter, a Form 5 Notice of Lawsuit and Request
to Waive Service of Summons, and a Form 6 Waiver of the Service of Summons. See Exhibits
A, B, C. The Assistants AG did not reply. They did not sign the waiver. The Respondents,
therefore, cannot be permitted to assert they lacked occasion to respond to the suit.
Further indicating that an office of the Texas Attorney General is not talking to the
other, one day after this Court’s September 8 grant of certiorari, the Attorney General’s
Office returned to the undersigned Counsel the signed Form 6 waiver of summons. A copy
of this document signed by Assistant Attorney General Leah O’Leary is attached as Exhibit
D.

September 23, 2021
Page 2
In sum, the Respondents should not be allowed to “lodge” anonymous and redacted
evidence they created this week on the pretext they were denied opportunity to answer the
lawsuit, when their own attorney received notice the day suit was filed, and then waived
service of summons the day after certiorari was granted.
Sincerely,
Seth Kretzer
Encls.

Case 4:21-cv-02609 Document 9-1 Filed on 08/17/21 in TXSD Page 1 of 3

THE LAW OFFICES OF SETH KRETZER

Exhibit A

9119 S. GESSNER ROAD, SUITE 105
HOUSTON, TX 77074

TELEPHONE (713) 775-3050
SETH@KRETZERFIRM.COM

TELECOPIER (713) 929-2019
SKYPE: SETH.KRETZER

August 17, 2021
Ms. Leah O’Leary
Deputy Chief-Law Enforcement Defense Division
Ms. Jennifer Morris
Office of the Attorney General of Texas
300 W. 15th Street
Austin, TX 78701
Re:

Via Email

4:21-cv-02609 Ramirez v. Collier, et al

Dear Ms. O’Leary and Ms. Morris:
The purpose of this letter is to address the Section 1983 case styled 4:21-cv-02609
Ramirez v. Collier, et al. The original complaint was filed August 10, 2021. An amended
complaint was filed August 16, 2021. As you know, this federal civil rights case is filed
appurtenant to my duties in the underlying habeas case, 2:12-cv-00410, to which I was
appointed in April 2017. Mr. Ramirez is scheduled for execution September 9, 2021.
My intention is to file a motion to stay in the cv-00410 matter, see Nken v. Holder,
556 U.S. 418, 434 (2009) (quoting the four factors typically considered in the consideration
of a request for stay of execution). This letter will likely be an exhibit to that pending
motion.
Our initial email exchange established that your clients will sign waivers of service
in exchange for the 60 days allowed under Rule 4(d):

Case 4:21-cv-02609 Document 9-1 Filed on 08/17/21 in TXSD Page 2 of 3
August 17, 2021
Page 2 of 3

On August 16, 2021, I filed an amended complaint and sent you a copy by email.
You responded as follows on August 17:

Case 4:21-cv-02609 Document 9-1 Filed on 08/17/21 in TXSD Page 3 of 3
August 17, 2021
Page 3 of 3

As I understand, “A waiver of service of process operates as a substitute for formal
service of process, allowing the plaintiff to avoid the unnecessary costs of formal service,
while ensuring that the defendant obtains notice of the suit.” 1 MOORE'S FEDERAL
PRACTICE § 4.10 (3d ed.). FED. R. CIV. P. 4(d)(4) provides, “A defendant who, before
being served with process, timely returns a waiver need not serve an answer to the
complaint until 60 days after the request was sent…” The first business day after sixty days
from August 10, 2021 is Monday, October 11, 2021.
Obviously, this October 11 answer date is after the date of Mr. Ramirez’s scheduled
September 9 execution. Separately, I have filed a Rule 5 request to waive service of
summons, requesting your office to waive service for the Defendants, and to enter
appearance now, concordant with Judge Hittner’s order today, for swift motions and
responses. Respectfully, therefore, I request you to file a Rule 6 waiver of service of
summons by Thursday, August 19, which appears appropriate under the circumstances,
given the comity requirements of Rule 4(d), and as Texas Attorney General has already
appeared in the underlying habeas action in cause 2:12-cv-00410.
Thank you for your gracious consideration to these important issues.
Sincerely,

cc: U.S. District Clerk (via ECF filing)

Seth Kretzer
Counsel for Mr. Ramirez

Case 4:21-cv-02609 Document 9-2 Filed on 08/17/21 in TXSD Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ,

*

Petitioner,

*

v.

Exhibit B

Civil Action No. 4:21-cv-2609

*

BRIAN COLLIER, et al.

*

Respondent.

*

CAPITAL CASE
PENDING EXECUTION DATE:
September 8, 2021
NOTICE OF A LAWSUIT AND REQUEST
TO WAIVE SERVICE OF SUMMONS
TO: MS. LEAH O’LEARY, ASSISTANT TEXAS ATTORNEY GENERAL,
PURSUANT TO FEDERAL RULE OF CIVIL PROCEDURE 5:
A 1983 lawsuit has been filed August 10, 2021 against the state officials you
represent, Bryan Collier, Bobby Lumpkin, and Dennis Crowley, in their official
capacities. I have previously sent you copies of both the original complaint, and the
amended complaint, in email correspondences to which you have replied.
This is not a summons or an official notice from the court. It is a request that,
to avoid expenses, you waive formal service of a summons by signing and returning
the enclosed waivers. To avoid these expenses, you must return the signed waivers
within 60 days under Rule 4. Because of Mr. Ramirez’s impending execution, and
1

Case 4:21-cv-02609 Document 9-2 Filed on 08/17/21 in TXSD Page 2 of 2

because the Texas Attorney General already represents the State in the associated
federal habeas corpus action, I respectfully ask you to return such to me by
Thursday, August 19, 2021.
If you return the signed waivers, I will file with the court. The action will
then proceed as if your clients had been served on the date the waiver is filed, but no
summons will be served on you. You would have 60 days under Rule 4, but
considering the exigencies of the execution date, I respectfully ask you to answer the
complaint by August 20, 2021.
I certify that this request is being sent you on the date below.
Seth Kretzer
LAW OFFICES OF SETH KRETZER
9119 S. Gessner; Suite 105
Houston, TX 77074
seth@kretzerfirm.com
[Tel.] (713) 775-3050
[Fax] (713) 929-2019
CERTIFICATE OF SERVICE
I certify that I have served the foregoing Notice via the Court’s CM/ECF
system on Counsel for Respondent, Ms. Leah O’Leary, on this the 17th day of
August 2021.
/s/ Seth Kretzer
Seth Kretzer

2

Case 4:21-cv-02609 Document 9-3 Filed on 08/17/21 in TXSD Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN HENRY RAMIREZ,

*

Petitioner,

*

v.

Exhibit C

Civil Action No. 4:21-cv-2609

*

BRIAN COLLIER, et al.

*

Respondent.

*

CAPITAL CASE
PENDING EXECUTION DATE:
September 8, 2021
NOTICE OF A LAWSUIT AND REQUEST
TO WAIVE SERVICE OF SUMMONS
TO: MR. SETH KRETZER, COUNSEL FOR MR. RAMIREZ, PURSUANT TO
FEDERAL RULE OF CIVIL PROCEDURE 6:
I have received your request to waive service of a summons in this action with
a copy of the complaint. On behalf of the Defendants, I agree to save the expense of
serving a summons and complaint in this case. I understand that the Defendants I
represent will keep all defenses or objections to the lawsuit, the Court’s jurisdiction,
and the venue of the action, but that Defendants waive any objections to the absence
of a summons or of service. I also understand that the Defendants must file and serve
an answer or a motion under Rule 12 within 60 days from August 17, 2021, the date

1

Case 4:21-cv-02609 Document 9-3 Filed on 08/17/21 in TXSD Page 2 of 2

when this request was sent. If I fail to do so, a default judgment will be entered
against the Defendants I represent.
_____________________________
Leah O’Leary
SBN: 24079074
Deputy Chief-Law Enforcement Defense
Division
Office of the Attorney General of Texas
300 W. 15th Street
Austin, TX 78701
CERTIFICATE OF SERVICE
I certify that I have served the foregoing pleading on all counsel of record on
this day.
_____________________________
Leah O’Leary

2

From:
To:
Cc:
Subject:
Date:
Attachments:

Schmidt, Jenna
Seth Kretzer
O"Leary, Leah
Signed Notice - Ramirez v. Collier; 4:21-CV-2609
Thursday, September 9, 2021 3:51:58 PM
Signed Ntc of Lawsuit & Rqst to Waive Svc of Summons.pdf

Exhibit D

Please see attached signed Notice of a Lawsuit & Request to Waive Service of Summons. Thank you.

Jenna Schmidt
Legal Assistant
Law Enforcement Defense Division
Attorney General of Texas
512-463-1436

